        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
The Department of Energy's
Opportunity for Energy Savings
Through Improved Management of
Facility Lighting




DOE/IG-0835                           June 2010
                                  Department of Energy
                                    Washington, DC 20585
                                           July 1, 2010



MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         Opportunity for Energy Savings Through Improved Management of
                         Facility Lighting"

BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act) highlighted the
importance of reducing the Nation's dependence on foreign oil and conserving scarce energy
resources. The Department of Energy, as the designated lead agency for promoting new
technologies, providing leadership for energy conservation and helping Federal agencies reduce
energy costs, plays a pivotal role in achieving the Recovery Act's energy related goals. The
Department spends nearly $300 million per year in energy costs for its 9,000 buildings at 24
sites. Electricity costs, totaling $190 million, account for close to two-thirds of the Department's
total energy expenditures, with roughly 40 percent or $76 million of those costs attributable to
the cost of lighting. New lighting technologies and advanced lighting systems offer the
Department the opportunity to significantly reduce energy consumption; decrease operating costs
at its sites throughout the country; and, demonstrate the benefits of using new lighting
technologies that are currently being developed in its laboratories and by other sources.

Because of its energy conservation leadership role, we initiated this audit to determine whether
the Department's facilities had implemented lighting conservation measures.

RESULTS OF AUDIT

The seven sites included in our review had not always taken advantage of lighting technology
opportunities to reduce energy consumption and save taxpayer dollars. While sites had, to
varying degrees, begun to update lighting, significant opportunities for conservation remain.
Specifically, we noted that the sites had not always:

       Used the most efficient lighting. In fact, each of the sites used outdated fluorescent lights
       when more energy and cost efficient alternatives were available. For example, more than
       55 percent of lighting purchases made by the Idaho National Laboratory and 40 percent
       from the Savannah River Site consisted of outdated, less efficient fluorescent lights.
       Also, Sandia National Laboratory site personnel estimated that 60 to 70 percent of the
       buildings at their California site used similar, inefficient fluorescent lighting;
                                                2


       Implemented, to the extent practical, energy efficient lighting technologies, such as
       spectrally enhanced lighting (SEL) and solid state lighting (SSL), whose research and
       development had actually been funded by the Department. In addition to significant
       energy savings, SEL and SSL have proven to be highly cost-effective, with estimated
       payback periods as short as one to three years when considering maintenance and energy
       savings; and,

       Maximized the energy savings associated with installing automated lighting control
       systems. Of the 96 buildings reviewed, 30, or about one-third, did not use occupancy
       sensors and 77 of the buildings, or 80 percent, did not use scheduling systems to
       automatically shut off lights.


Local officials acknowledged that they had not fully utilized basic and advanced lighting
conservation measures. They cited the lack of resources for phasing in more energy efficient
lighting as the primary impediment along with a lack of systematic planning. Although not
widespread, other reasons offered by site officials included problems with temporarily shutting
down contaminated sites and sensitive areas to replace lighting; security concerns; and, worker
displacement. We noted that site officials, especially energy management team personnel, were
knowledgeable of energy-saving lighting technology and appeared to be enthusiastic about the
potential for reducing energy consumption by improving lighting efficiency.

By not capitalizing on opportunities to improve lighting efficiency, the Department uses and will
continue to use more energy than necessary, impacting its ability to achieve its mission to
advance the energy security of the United States. Based on the work performed during the audit,
and using a conservative estimating technique, we believe that, had the Department employed
the latest lighting technologies throughout the complex, it could have saved enough electricity to
power over 3,200 homes per year. Further, the Department missed a significant opportunity to
promote advanced lighting technologies, including those developed by its own laboratory
system. Finally, the leadership role of the Department, specifically in the Federal energy sector,
is undermined when it does not avail itself of readily available energy efficiency techniques.

Prior Office of Inspector General reports have identified similar or related issues regarding
energy conservation at the Department. In our report on The Department of Energy's
Opportunity for Energy Savings Through the Use of Setbacks in its Facilities (DOE/IG-0817,
July 2009), we found that the Department could significantly reduce energy consumption
through the use of setbacks on heating and cooling systems. In two other reports, Department of
Energy Efforts to Manage Information Technology Resources in an Energy-Efficient and
Environmentally Responsible Manner (OAS-RA-09-03, May 2009), and Management of the
Department's Data Centers at Contractor Sites (DOE/IG-0803, October 2008), we found that the
Department had not always taken adequate steps to incorporate energy efficient processes into
information technology systems.

We made several recommendations designed to assist the Department in its effort to save energy
and reduce costs.
                                              3


MANAGEMENT REACTION

Department management generally agreed with our findings and recommendations. Management
emphasized the importance of reducing energy consumption and greenhouse gas emissions and
provided actions that will be taken to address the issues identified in our report. In separate
comments, the National Nuclear Security Administration indicated that it would work with its
sites and Headquarters to ensure that actions are taken to address facility lighting.

Management's comments are included in Appendix 4.

Attachment

cc:   Deputy Secretary
      Under Secretary of Energy
      Under Secretary for Science
      Under Secretary of Nuclear Security
      Chief of Staff
      Chief Financial Officer
      Director, Office of Risk Management, CF-80
      Director, Office of Science, SC-1
      Team Leader, Office of Risk Management, CF-80
      Audit Resolution Specialist, Office of Risk Management, CF-80
      Director, Office of Internal Controls, NA-66
REPORT ON THE DEPARTMENT OF ENERGY'S OPPORTUNITY FOR
ENERGY SAVINGS THROUGH IMPROVED MANAGEMENT OF
FACILITY LIGHTING


TABLE OF
CONTENTS


  Facility Lighting

  Details of Finding                                   1

  Recommendations                                      5

  Comments                                             6


  Appendices

   1. Types of Lighting                                7

   2. Objective, Scope, and Methodology                8

   3. Prior Audit Reports                              10

   4. Management Comments                              11
ENERGY SAVINGS OPPORTUNITIES

Use of Efficient and   Our review of lighting equipment and systems in 96 buildings at
Innovative Lighting    7 of the Department of Energy's (Department) 24 major sites
                       found significant opportunities for conserving energy and reducing
                       costs. Specifically, the Department had not always used the most
                       efficient lighting available in the market; fully adopted innovative
                       lighting technologies developed in the Department's laboratories; and,
                       ensured the optimal use of advanced lighting control systems.

                                         Use of Energy Efficient Lighting

                       The seven sites we visited used, to varying extents, outdated and
                       inefficient fluorescent lights, commonly known as T12s. These lights
                       were introduced over 40 years ago and were replaced by T8
                       technology in the 1980s. Since that time, T8 technology has
                       advanced rapidly. Despite demonstrated and well known energy
                       reductions of up to 40 percent associated with the latest fluorescent
                       lighting technology, the Department's facilities continued to make
                       widespread use of T12 technology. (See Appendix 1)

                       Although the Department lacked consistent and comprehensive
                       information on its use of different types of lighting, we observed
                       examples of the large-scale uses of inefficient, outdated lighting. In
                       2009, T12 lights accounted for over 55 percent of all lighting
                       purchases at Idaho National Laboratory (Idaho) and over 40 percent
                       at Savannah River Site (Savannah River), with T12 light purchases
                       totaling 21,500 and 18,000 units respectively. Pantex Plant (Pantex)
                       officials told us that they had upgraded a significant number of
                       lighting fixtures, but acknowledged that numerous buildings had not
                       been upgraded at the site due to the partial termination of an Energy
                       Savings Performance Contract. As of December 2009, Pantex did not
                       have a definitive schedule to install improved lighting equipment that
                       had been stored in large containers for almost a year. Additionally, at
                       Argonne National Laboratory (Argonne), the entire administrative
                       building relied on inefficient T12 lighting; and, Sandia National
                       Laboratory (Sandia) personnel estimated that 60 to 70 percent of the
                       buildings at its California site used T12 lights.

                       While an improvement over T12 equipment, some sites continued to
                       use outdated T8 lights. Savannah River, for example, had not
                       evaluated the cost-effectiveness of upgrading approximately 22,000
                       T8 lights that had been installed 15 years ago. According to the
                       Department's Federal Energy Management Program, the trend of
                       rapid improvements in lighting technologies can create cost-effective
                       opportunities for upgrading lighting in Federal facilities, even if the
                       lighting has been upgraded in the last 5 to 10 years. High
                       performance T8 lights are initially more expensive than either T12s or



Page 1                                                                   Details of Finding
         outdated T8s. However, the payback period can be as short as 2
         years, with energy savings of 10 to 20 percent compared to outdated
         T8 lighting systems.

         In addition to savings that could be achieved by updating fluorescent
         lighting, the Department could also conserve energy by replacing
         incandescent lights with compact fluorescent lights (CFLs). CFLs
         use 75 percent less energy, last about 10 times longer than
         incandescent lights and are generally compatible with existing
         sockets. Therefore, they often require no additional labor costs or
         fixture adjustments. Despite the substantial benefits of CFLs, all of
         the sites we visited continued to purchase incandescent lights. CFL
         replacement, if available, can dramatically reduce energy
         consumption. In fact, replacing one standard incandescent light with
         a CFL can save $30 in energy costs over its lifetime, which is
         approximately 6,000 to 12,000 hours. (See Appendix 1)

                 Implementation of Innovative Lighting Technologies

         For the most part, sites either did not use, or made limited use of,
         innovative lighting technologies developed in the Department's
         research laboratories. For example, the Department had funded
         research in a technology known as Spectrally Enhanced Lighting
         (SEL). This technology takes advantage of the human eye's ability to
         see more clearly when the spectral properties of lighting are shifted to
         be more like the color of daylight. One SEL study concluded that
         energy reductions ranging from 20 to 45 percent could be realized
         with no effect on occupant satisfaction. Further, the costs to upgrade
         to SEL are estimated to be recouped through energy and maintenance
         savings in one to three years. Despite known benefits, of the seven
         sites reviewed, the use of SELs was limited to two leased facilities at
         Idaho, and one project at Argonne. Argonne officials stated that
         energy consumption was reduced by 50 percent as a result of
         converting its old T12 systems to SEL technology.

         In addition to energy savings opportunities afforded by SEL,
         Department officials reported that no other lighting technology offers
         as much potential to save energy and enhance the quality of building
         environments as Solid State Lighting (SSL). Some applications of
         the technology are now commercially viable. For example, cost-
         effective solid state light-emitting diode (LED) products that offer
         lighting uniformity and longer operating life are now available for
         exterior applications. In fact, a Department parking lot lighting
         demonstration project in California concluded that LED technology
         saved enough money to cover initial costs in three years. However,
         the sites we reviewed had used LEDs in only a limited number of



Page 2                                                      Details of Finding
         outdoor applications. Officials at four of the seven sites stated that
         they had completed small LED projects to include several test
         demonstrations. Only Sandia completed a larger project,
         comparatively, with over 120 parking lot and street lights replaced
         with LEDs.

         To their credit, a number of Department sites are planning to expand
         the use of innovative technologies. The Department, for example,
         plans to replace 600 fixtures in the outdoor area of the Forrestal
         building in Washington, D.C., with LEDs, with anticipated savings of
         close to $50,000 annually and a payback period of less than four
         years. In addition, Argonne officials informed us that they have
         begun to gather information on an indoor lighting project for the
         Advanced Photon Source Building and are working with a vendor to
         evaluate the replacement of metal halide and fluorescent lamps with
         LEDs. According to officials, replacing existing lighting with LEDs
         has the potential to immediately reduce energy consumption by 60 to
         70 percent per light, depending on the application.

                            Use of Lighting Control Systems
         The seven sites we visited also had not always maximized the energy
         savings associated with using automated lighting control systems. An
         estimated 30 to 50 percent reduction in lighting energy use can be
         achieved with lighting control systems. While all sites reviewed
         employed occupancy sensors to turn lights off in empty rooms, the
         sensors had not been implemented uniformly throughout each site.
         Of the 96 buildings that we evaluated for use of occupancy sensors,
         30 buildings, or about 30 percent, did not contain occupancy sensors.
         Lawrence Livermore National Laboratory, for example, had installed
         occupancy sensors in only one-half of the occupied space in one of
         the buildings included in our review. In two buildings we evaluated
         for occupancy sensor use at Argonne, officials identified additional
         opportunities for expanded use of occupancy sensors in the restrooms
         and additional office space areas that are currently not covered by
         sensors.

         In addition to occupancy sensing systems, the sites had not
         consistently installed automatic light scheduling systems to reduce
         energy consumption through lighting. Of the 96 buildings, 77
         buildings, or about 80 percent, did not contain automatic scheduling
         systems. In one case, an installed system was not operational.
         Specifically, Argonne had installed an automatic scheduling system
         in a building at the time it was constructed in 1997, but the central
         control unit needed to make the system operable had not been
         purchased as of March 2010.



Page 3                                                       Details of Finding
Prioritizing           Overall, these conditions occurred because the Department lacked a
Improvements           systematic approach to upgrading lighting systems and an adequately
in Facility Lighting   funded energy conservation program. Department support for
                       improving lighting was generally very limited. The Department had
                       not planned for energy efficiency improvements in the budgeting
                       process, relying, to some extent, on private financing mechanisms
                       known as Energy Savings Performance Contracts (ESPCs).
                       However, according to the Department, funding lighting projects with
                       ESPCs may not be a viable option solely due to the size and scope of
                       the projects. According to Department guidance, ESPCs are most
                       appropriately used for comprehensive projects rather than single
                       measure projects such as lighting. In fact, recent proposals for ESPCs
                       at Savannah River and Lawrence Berkeley National Laboratory
                       (Berkeley), which included lighting components, were rejected
                       because the projects, as a whole, were not economically feasible.
                       Notably, the National Nuclear Security Administration (NNSA)
                       requested over $6.6 million for an Energy Modernization and
                       Investment Program for Fiscal Year (FY) 2011 to promote
                       sustainability and reduce energy usage.

                       Further, the Department had not tracked or ensured the reinvestment
                       of savings accruing from energy conservation projects. DOE Order
                       430.2B requires savings from energy conservation measures to be
                       reinvested in additional energy conservation efforts. We found, and a
                       senior Department official confirmed, that there was no Department-
                       wide system in place to track or calculate reinvestment of energy
                       savings. With the exception of Argonne, there was no formal system
                       in place at the sites we visited to identify energy savings for
                       reinvestment. Argonne officials report energy savings and
                       reinvestment opportunities to the Argonne Site Office on a semi-
                       annual basis. Formally tracking and reinvesting energy savings
                       allows for additional funding opportunities for projects that are
                       smaller in scale in relation to other energy conservation activities, like
                       facility lighting.

                       Finally, we found that the sites each had unique lighting replacement
                       issues. Specifically, Argonne officials commented that they faced
                       two issues in upgrading a large administrative building containing
                       T12 lights – the displacement of workers and ceiling heights.
                       Additionally, Pantex and Savannah River officials stated that
                       replacing lighting can be very complicated due to the mission needs
                       of the sites and related security concerns. Though we acknowledge
                       the difficulties associated with replacing lighting in some buildings,
                       overall, we concluded that with proper planning, coordination and
                       funding these efforts would be highly beneficial to the sites and the
                       Department.



Page 4                                                                     Details of Finding
Energy Savings         By exploiting readily available efficient lighting and lighting systems
Opportunities          opportunities, the Department could save over $2.2 million in electric
                       utility operating costs annually, equating to the amount of electricity
                       used to power over 3,200 homes per year. Equally important, by
                       demonstrating the cost-effective use of state-of-the-art lighting, the
                       Department could better fulfill its role of promoting energy
                       conservation and adoption of the latest technologies in both the
                       private and public sectors.

                       The energy savings estimate, in our view, was based on extremely
                       conservative calculations. Our estimate does not reflect, for example,
                       the additional savings opportunities that are available to the
                       Department through retrofitting incandescent, high pressure sodium,
                       metal halide, or standard T8 lighting systems. We were unable to
                       fully quantify the use of these systems. However, during site tours
                       and our review of purchasing data, we observed that these outdated
                       technologies are in use and represent an opportunity for the
                       Department to realize additional savings.

RECOMMENDATIONS To improve the Department's management of facility lighting, we
                recommend that the Under Secretary of Energy, the Under Secretary
                for Science, and the Under Secretary for Nuclear Security require
                Federal Site Managers to:

                           1.   Evaluate opportunities for replacing outdated lighting
                                systems and demonstrating the practical application of
                                lighting technologies developed in the Department's
                                laboratories;

                           2.   Develop a plan to phase in more efficient lighting
                                technologies currently available in the market; and,

                           3.   Develop a process to track and reinvest energy savings as
                                required in DOE Order 430.2B.

                       We also recommend that the Under Secretary of Energy and the
                       Under Secretary for Science, in conjunction with the Chief Financial
                       Officer:

                           4.   Evaluate the budget process to ensure that the Department is
                                pursuing funding for energy efficiency programs.

MANAGEMENT            Management generally agreed with the conclusions and
REACTION              recommendations in our report. The Office of the Under Secretary of
                      Energy indicated that it would take action to develop processes to




Page 5                                                                  Recommendations
           track energy savings and recognized that there were additional
           opportunities available to reduce energy consumption through
           improved lighting. The Office of Science noted that it would take
           additional steps to address the findings in our report and evaluate
           policy options for tracking and reinvesting savings. The Office of the
           Chief Financial Officer provided comments indicating that it would
           further evaluate policy options for tracking and reinvesting savings
           across the Department and that the FY 2012 budget guidance
           addressed the recommendation to evaluate the budget process for
           energy efficiency programs.

           In separate comments, NNSA indicated that it would work with its
           sites and Headquarters to resolve impediments to capitalizing on
           energy efficient lighting, and develop plans to deploy more energy
           efficient, technologically advanced lighting.

AUDITOR    Management's comments, included in Appendix 4, are responsive to
COMMENTS   our finding and recommendations. Overall, we are encouraged by the
           Department's response to our report and its plans to reduce energy
           consumption through improved facility lighting at Department sites.

           In response to Office of Science comments, we reconsidered the
           methodology we used to calculate the potential energy savings
           presented in our report. We concluded that the estimate we used was
           accurate and reasonable. The estimate of energy savings was based,
           in part, on data provided by the Energy Information Administration.




Page 6                                    Recommendations and Comments
Appendix 1


             TYPES OF LIGHTING




Page 7                           Types of Lighting
Appendix 2

OBJECTIVE     The objective of this audit was to determine if the Department of
              Energy (Department) had effectively used lighting conservation
              measures.


SCOPE         The audit was performed between September 2009 and April 2010 at
              the Department's Headquarters in Washington, D.C.; Lawrence
              Livermore National Laboratory in Livermore, California; Sandia
              National Laboratory (Sandia) in Livermore, California; Lawrence
              Berkeley National Laboratory in Berkeley, California; Idaho
              National Laboratory in Idaho Falls, Idaho; Pantex Plant (Pantex) in
              Amarillo, Texas; Argonne National Laboratory in Argonne, Illinois;
              and, Savannah River Site in Aiken, South Carolina.


METHODOLOGY   To accomplish the audit objective, we:

                      Analyzed 12 months (Fiscal Year 2009) of lighting products
                      purchased for each site;

                      Reviewed energy management programs and site executable
                      plans for each site;

                      Interviewed key personnel at Department Headquarters and
                      each of the sites;

                      Toured selected general purpose and administrative
                      buildings at each site;

                      Analyzed cost-effectiveness of different lighting
                      technologies;

                      Developed a savings estimate by using an assumption that
                      10 percent of the Department's facilities used T12 lighting
                      systems, and applying a 30 percent energy savings
                      associated with converting from a T12 to a T8 system to the
                      40 percent energy consumption attributed to building
                      lighting;

                      Reviewed energy saving performance contracts and
                      analyzed lighting projects completed and planned for each
                      site; and,

                      Reviewed laws and regulations pertaining to energy
                      conservation practices and lighting standards.



Page 8                                     Objective, Scope, and Methodology
Appendix 2 (Continued)

                  Due to the lack of consistent and comprehensive information on the
                  Department's use of lighting, we were unable to statistically project
                  the number of T12 and outdated T8 lighting systems currently used
                  at Department facilities. However, we based our energy savings
                  estimate that 10 percent of Department facilities contained T12
                  lighting systems on information gathered from the sites we reviewed
                  to include site tours, procurement data, and interviews with energy
                  management officials. Each site provided varying information
                  regarding the number of T12 lights used at the site. Pantex stated
                  that 10 percent of the site's lighting systems had not been upgraded
                  while Sandia stated 60 to 70 percent of the site used T12 lighting
                  systems. Because of the difference between sites and the
                  inconsistent data presented, we used the most conservative number,
                  10 percent, provided by the sites. In addition, we based our estimate
                  that 40 percent of site electricity is consumed through lighting on
                  estimates made by the Energy Information Administration. Based
                  on the information gathered during the audit, we believe this
                  estimate accurately represents our findings.

                  We conducted this performance audit in accordance with generally
                  accepted Government auditing standards. Those standards require
                  that we plan and perform the audit to obtain sufficient, appropriate
                  evidence to provide a reasonable basis for our finding and
                  conclusions based on our audit objective. We believe that the
                  evidence obtained provides a reasonable basis for our finding and
                  conclusions based on the audit objective. The audit included tests of
                  controls and compliance with laws and regulations necessary to
                  satisfy the audit objective. Because our review was limited, it would
                  not necessarily have disclosed all internal control deficiencies that
                  may have existed at the time of our audit.

                  During the audit, we assessed the Department's compliance with the
                  Government Performance and Results Act of 1993. We concluded
                  that the Department had not established performance measures for
                  management of lighting controls at the sites reviewed. Also, we did
                  not rely on computer generated data to perform the audit.

                  Management waived the exit conference.




Page 9                                         Objective, Scope, and Methodology
Appendix 3

                                PRIOR AUDIT REPORTS

  The Department of Energy's Opportunity for Energy Savings Through the Use of Setbacks in
  its Facilities (DOE/IG-0817, July 2009). The audit revealed that the Department of Energy
  (Department) had not effectively used operational setbacks of the heating, ventilation, and air
  conditioning systems in Department facilities. It was noted during the audit that several sites
  examined did not use or failed to properly maintain setback systems, and the Department did
  not ensure setback capabilities were utilized at 64 percent of the sites reviewed. The audit
  discovered the Department could improve on reducing energy consumption by properly
  maintaining or utilizing setbacks, thereby saving taxpayer dollars. An estimated $11.5
  million could have been saved in annual utility costs.

  Department of Energy Efforts to Manage Information Technology Resources in an Energy-
  Efficient and Environmentally Responsible Manner (OAS-RA-09-03, May, 2009). The audit
  revealed that the Department did not take adequate steps to ensure energy efficiency through
  management of information technology resources. 8 Specifically, the sites visited had not
  implemented the recommended time for standby mode, many computers did not have the
  hibernation feature enabled, and energy saving desktop devices were not purchased. The
  Department had not taken important steps to reduce energy consumption and properly
  monitor performance to realize energy savings, and it was estimated the Department spent
  $1.6 million more on energy costs for Fiscal Year 2008 by not adequately addressing the
  opportunity for savings.

  Management of the Department's Data Centers at Contractor Sites (DOE/IG-0803,
  October 2008). The audit found that the Department had not taken advantage of energy
  savings through consolidation and efficient hardware technologies. In particular, data centers
  duplicated common services provided such as e-mail, data storage, and libraries. Four of six
  sites made only limited use of more efficient hardware technologies that conserve energy and
  reduce operational costs. The audit identified potential annual savings of $2.3 million
  through consolidation and use of more efficient hardware technologies in the data centers.




Page 10                                                                   Prior Audit Reports
Appendix 4




Page 11      Management Comments
Appendix 4 (continued)




Page 12                  Management Comments
Appendix 4 (continued)




Page 13                  Management Comments
Appendix 4 (continued)




Page 14                  Management Comments
Appendix 4 (continued)




Page 15                  Management Comments
Appendix 4 (continued)




Page 16                  Management Comments
Appendix 4 (continued)




Page 17                  Management Comments
                                                                    IG Report No. DOE/IG-0835

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
